Review of Cost and Fraud Controls and Allowances for
  Home Oxygen in the Federal Black Lung Program




                   U.S. Department of Labor
                   Office of Inspector General
         Office of Analysis, Complaints and Evaluations




                Report No. 2E-04-433-0001
                Date: October 27, 1999
                                                          Table of Contents


          Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

I.        Purpose, Background and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

II.       Additional Controls are Needed to Control Costs and Reduce Fraud Vulnerability for Arterial Blood
          Gas Testing . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

          A.         Fraud Case: Paul David Adkins and Mountain Respiratory Therapy . . . . . . . . . . . . . . . .                                  2
          B.         Recommendations: DCMWC Should Limit the Number of Automatic Payments for
                     ABG Testing and Similar Medical Procedures. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

III. Additional Controls are Needed to Control Costs and Reduce Fraud Vulnerability for
Gaseous Oxygen . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . .5

          A.         Fraud Case: Independent Home Medical Rentals and Sales . . . . . . . . . . . . . . . . . . . . . . .                            5
          B.         Fraud Case: Southern Air Home Equipment Company . . . . . . . . . . . . . . . . . . . . . . . . .. .                            6
          C.         DCMWC’s Automatic Payment Allowance for Gaseous Oxygen is Too High. . . . . . . . . .                                           6
          D.         The CMN System Can be Manipulated by Dishonest Providers . . . . . . . . . . . . . . . . . . . .                                7
          E.         Recommendations: Additional Controls are Needed for Gaseous Oxygen. . . .. . . . . . . . . 7

IV        Best Practices for Home Oxygen . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

          A.         HCFA Cost Controls . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . 12
          B.         VA Oxygen Procurement Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .. . . 17
          C.         Suitability of HCFA’s and VA’s Oxygen Policies to the Black Lung Program . . . . . . . . 19
          D.         Recommendations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


Appendices

A.        DCMWC Claimant Survey
B.        DCMWC CMN Form
C.        Oxygen Conserving Devices and Savings Capacities
D.        Top Providers of Gaseous Oxygen for the Black Lung Program
E.        Acronyms / Glossary
F.        Agency Response




                                                                          i
                                       Executive Summary

This report on medical expenditures in the Department of Labor's (DOL) Black Lung Program was
initiated based on investigations by the OIG’s Office of Investigations (OI) revealing fraudulent billing
against the Black Lung Program in the areas of home oxygen and arterial blood gas testing. Beyond fraud
issues, our review focused on concerns expressed by our criminal investigators that medical providers
legally bill the Black Lung Program for home oxygen in amounts beyond what are reasonable, customary,
or medically necessary. In examining both fraud and cost issues, we conducted best practice analyses of
other federal programs whose claimants have comparable requirements for supplemental oxygen.

Findings

The agency which administers the Black Lung Program, the Division of Coal Mine Workers’
Compensation (DCMWC), may be vulnerable to fraud and excessive billing. Additional controls may be
needed to control costs and reduce fraud vulnerability by medical providers. In addition, DCMWC’s
automatic payment allowances for gaseous oxygen need to be reduced to both control excessive oxygen
payments, and reduce incentives for providers to engage in fraudulent behavior.

The Health Care Financing Administration (HCFA) and the Veterans Administration (VA) have
implemented reforms and adopted controls to contain medical fraud and medical costs in the areas of
home oxygen. HCFA has cut home oxygen rates by 30% over the last two years by determining what
are reasonable and customary charges. For example, HCFA allows providers to charge a maximum of
$228.80 per month for the rental of oxygen concentrators (this includes claimant co-payment and all
related supplies). HCFA further adjusts payment ceilings by geographic area so they pay providers in
some states even less than the national average. In contrast, DCMWC permits up to $409.82 for monthly
concentrator rentals regardless of geographic location, and allows a $75.00 per item charge for supplies.

HCFA is also currently engaged in a demonstration project in South Florida to examine whether they can
further reduce home oxygen costs without jeopardizing claimant service. This project requires oxygen
providers to bid competitively for oxygen contracts - awarding the contract to the bidder with a
reasonably low bid combined with a positive claimant service record.

This competitive bidding demonstration project is similar to the VA system of competitive oxygen
procurement for its oxygen patients. VA engages in competitive bidding with accredited providers in all
aspects of its oxygen delivery system, including the purchase of oxygen concentrators in some cases.
Competitive bidding keeps VA’s maximum allowable oxygen costs significantly lower than those of the
Black Lung Program. For example, in its procurement region comprising West Virginia, Tennessee, and
Kentucky, VA pays $69.22 per month for oxygen concentrators (including all supplies and servicing)
compared to the maximum $409.82 plus the $75.00 per item supply charge allowed by the Black Lung
Program. Although VA has inherent advantages over both HCFA and DCMWC in controlling oxygen
costs because it runs its own medical centers, other federal agencies can “piggyback” on VA contracts to

                                                   -ii-
lower their own oxygen costs.

Recommendations

We are recommending that DCMWC review the controls and ceilings within its bill payment system for
both medical procedures and supplemental oxygen to determine if additional controls are necessary to
control costs and reduce fraud vulnerability. In particular, we recommend that the controls related to one
specific medical procedure, arterial blood gas (ABG) testing, be reviewed and strengthened.

In addition, DCMWC should restructure its oxygen reimbursement methods and policies to control the
maximum allowances for home oxygen. Our analysis, which focused on the comparability of HCFA and
VA approaches to the Black Lung Program, does not indicate serious impediments to DCMWC adopting
HCFA reforms, VA procurement policies, or a hybrid approach combining characteristics of both
agencies. Therefore, we are recommending that DCMWC review each of these alternatives and
determine which, if any, would be most helpful in reducing potentially excessive home oxygen costs and
fraud.

Agency Response and OIG Conclusion

The agency’s response to the OIG’s draft final report agrees that Black Lung Program “medical bills,
including those for home oxygen, must be carefully reviewed and costs controlled.” The response also
points out several steps which have already been taken by DCMWC to address the issues raised in our
draft report.

However, the OIG does not believe that the agency has adequately addressed nor responded to some of
the most important issues raised in the draft report. Specifically, the agency did not establish that there are
impediments to the adoption of HCFA reforms and/or VA procurement practices for the procurement of
home oxygen. Although some of our recommendations have been resolved, several very important
recommendations remain unresolved. The agency’s complete response can be found in Appendix F.




                                                      -iii-
I.      Purpose, Background and Methodology

This review examines cost and fraud controls and allowances for home oxygen within the federal Black
Lung Program.

The Black Lung Program, established by the Federal Coal Mine Health and Safety Act of 1969, provides
medical benefits to coal miners disabled by pneumoconiosis (black lung). The U.S. DOL’s Division of
Coal Mine Workers' Compensation (DCMWC) administers the Black Lung Program. DCMWC is a
component of the Office of Workers’ Compensation Programs (OWCP).

From 1997 through the present, the OIG's Office of Investigations (OI) has investigated cases of fraud by
medical providers against the Black Lung Program. These investigations have revealed fraudulent billing
against the Black Lung Program in the areas of arterial blood gas testing and home oxygen. Beyond fraud
issues, OI investigators have been concerned that medical providers are legally billing the Black Lung
Program in amounts far beyond what should be considered reasonable, customary, or medically
necessary. OI referred its fraud and cost concerns to the OIG's Office of Analysis, Complaints, and
Evaluations (OACE) for further analysis.

OACE representatives met with senior DCMWC officials on February 1, 1999 to explore the need for
greater cost controls, and to solicit ideas from these officials as to what new policies or procedures might
be useful. At this meeting, DCMWC officials did not indicate that any new or additional agency actions
were under consideration to reduce possible vulnerability to fraud or to control oxygen costs. During a
subsequent meeting, we were informed that DCMWC planned to implement a new bill payment computer
system in 2000. However, no new controls to control costs or detect the type of fraud investigated by OI
were mentioned during this meeting. Following these meetings, OACE proceeded with its analysis of the
information referred to it by OI.

We reviewed the program and payment practices of DCMWC in the areas of medical procedures and
home oxygen. Our review of relevant literature led us to compare and contrast the Black Lung Program
with HCFA and VA, whose claimants have comparable requirements for supplemental oxygen, yet pay
considerably lower prices. We also analyzed the suitability of HCFA and VA methods to the Black Lung
Program. Our analysis of suitability included concerns highlighted during our review regarding patient
choice; perceived problems with servicing Black Lung claimants in remote locations; potential harm to
small businesses due to reduced profit margins and; clinical differences among claimants.

We conducted our review in accordance with the Quality Standards for Inspections published by the
President's Council on Integrity and Efficiency.




                                                   -1-
II.     Additional Controls are Needed to Control Costs and Reduce Fraud
        Vulnerability for Arterial Blood Gas Testing

The Black Lung Program has been defrauded in recent years in the area of diagnostic medical procedures
involving arterial blood gas (ABG) testing. Automatic controls limiting the number of times providers are
automatically paid when performing ABG procedures may detect and prevent such fraudulent billing, and
may also prevent unintentional over-billing. A recent case investigated by OI illustrates the vulnerability of
the Black Lung program to fraud in the area of ABG procedures.

A. Fraud Case: Paul David Adkins and Mountain Respiratory Therapy

From April 1995 through January 1999, Paul David Adkins, via his company, Mountain Respiratory
Therapy, defrauded the federal Black Lung Program for more than $800,000. Adkins illegally obtained
the names and social security numbers of Black Lung claimants, and then billed DCMWC for diagnostic
and respiratory services which were never provided. He submitted thousands of bills for 40 claimants,
involving the following CPT (Physicians Current Procedural Terminology) codes:

                               82803 - Arterial Blood Gas Test (ABG)
                               36600 - Puncture for ABG
                               94060 - Respiratory Therapy

The ABG procedures referenced above measure the level of oxygen in the blood, and are used for
diagnostic purposes (generally to establish claimant eligibility for medical benefits). ABG tests are normally
not conducted frequently per claimant. Despite their diagnostic nature, Adkins billed DCMWC repeatedly
per claimant for tests which were never conducted. DCMWC routinely paid many of the fraudulent bills
submitted by Adkins. Payment occurred because, despite the non-routine frequency of these tests, no limit
was placed by DCMWC on the number of ABG tests billable per claimant by a provider. Adkins
submitted more than 10,000 bills, receiving $872,824 in fraudulent payments from DCMWC.

Adkins’ scheme would have gone undetected if not for his spending habits, which were observed by a
former Lieutenant with the West Virginia State Police, who questioned why many of Adkins’ friends were
driving new vehicles they could not afford. While Adkins was defrauding the federal Black Lung Program,
he also defrauded the West Virginia State Workers’ Compensation fund for Black Lung victims in the
amount of $750,000. West Virginia’s bill payment system had numerous controls designed to detect the
kind of fraudulent schemes engaged in by Adkins. Unfortunately, program administrators had suspended
these controls. Adkins was charged criminally with violations of federal wire fraud and money laundering
statutes and civilly with violations of the False Claims Act. He entered a plea of guilty with respect to the
criminal charges in May, 1999, and was sentenced to five years and three months in prison in August,
1999.




                                                     -2-
B. Recommendations:            DCMWC Should Limit the Number of Automatic Payments for
                               ABG Testing and Similar Medical Procedures

The Adkins case was uncovered largely by accident, and it is possible that similar fraud by other
unscrupulous providers could go undetected. Because other medical procedures may be vulnerable
to the same type of fraud perpetrated by Adkins via ABG tests, DCMWC should examine the
medical procedures authorized by their program to fully define which procedures would not normally
be medically indicated on numerous, or even multiple, occasions. Specifically, we are recommending
the following actions:

1.     We recommend that DCMWC review the automated and other system controls within its bill
       payment system for all medical procedures, including office visits, to determine if additional
       controls are necessary to control costs and reduce fraud vulnerability. Medical procedures
       which are rarely or infrequently conducted, such as ABG testing, should be automatically
       rejected by DCMWC bill payment system when billed on multiple occasions by a provider.
       For example, DCMWC could have its system programed so that if a provider bills for an
       ABG twice in the same month the second bill would be automatically rejected and claims
       examiners would flag the bill for scrutiny before payment. Such follow-up need not be time
       consuming, and can be accomplished via a survey or a phone call to a patient by the claims
       examiner asking if the claimant has utilized the services billed. We also recommend that the
       controls for procedures which may be performed regularly, but only for a minority of
       claimants, also be reviewed.

       ESA/OWCP/DCMWC Response

“DCMWC agrees with the recommendation and has already undertaken such a review. Based
on consultations with the OWCP Medical Director, DCMWC has established an annual
frequency limit on ABG tests. Following the frequency edit routine, bills for ABG tests above
the limit will be denied and, for reconsideration, the provider will have to submit appropriate
medical justification. Simple limitations for other rarely used procedures, based on extensive
program experience, have proven to be neither cost-effective nor warranted. Accordingly,
additional limits are not contemplated at this time. However, the program constantly reviews
bill payment activities to determine if additional edits are warranted and will continue to do so.
Additionally, once the new client server system is implemented, currently scheduled for late
spring 2000, additional, more sophisticated relational edits and related procedures will be
considered.”




                                                -3-
OIG’s Conclusion

We concur with the corrective action of placing a frequency limit on ABG tests per year,
although the agency’s response does not specify the amount or nature of this planned
frequency limit. This recommendation is considered resolved and will be closed pending
receipt of this specific information. We also continue to believe that the Black Lung Program
would benefit from similar reviews of other medical procedures, including office visits, for
frequency limits to control costs and possible fraud

2.     Written questionnaires or other follow-up directed towards Black Lung claimants should be
       used on a periodic basis to inquire as to the type and frequency of medical services received
       over a set period of time. Audit work conducted by DCMWC or its representatives should
       focus on any discrepancies between survey results and billed services.

ESA/OWCP/DCMWC Response

“The DCMWC already has a procedure to verify the initial receipt of service (see DCMWC
Procedure Manual Chapter 3-601, paragraph 7) and is in the process of enhancing that
procedure to ensure that all requisite information is gathered in a uniform manner. Based on
extensive experience, the program has determined that written questionnaires, given the
demographics of our customers, are not an effective way to gather information. DCMWC is in
the process of revising its telephone survey to validate that requested services are delivered as
prescribed and that the patient is satisfied with the service.”

OIG’s Conclusion

We have reviewed the draft surveys attached with the agency’s response, and concur that this
is an appropriate corrective action. We also agree that telephone surveys are a more effective
method of communication for some black lung claimants. This recommendation is considered
resolved, and will be closed pending receipt of your final surveys, and the applicable
procedures regarding survey administration.




                                                -4-
III.    Additional Controls are Needed to Control Costs and Reduce Fraud
        Vulnerability For Gaseous Oxygen

Although oxygen comprised 98% of all expenditures for Durable Medical Equipment (DME) used in the
Black Lung Program in 1998, DCMWC, by permitting excessive gaseous tank oxygen allowances, may
not be implementing sufficient controls to control costs and reduce fraud vulnerability in gaseous oxygen
billing.1 The following cases illustrate the vulnerability of the Black Lung Program to fraud by unscrupulous
oxygen providers.

A. Fraud Case: Independent Home Medical Rentals and Sales

Prior to the indictments and convictions of its
president and treasurer on federal felony            Background: Oxygen Delivery Methods
charges including false claims and money
laundering, Independent Home Medical Rentals         Currently, there are three methods, or modalities,
and Sales (Independent) had for years been one       through which Black Lung claimants are
of the largest vendors of gaseous tank oxygen in     prescribed supplemental oxygen: compressed gas,
                                                     which is available in various size tanks ranging
the Black Lung Program. After employees in
                                                     from large stationary cylinders to small portable
DCMWC’s medical audit section informed the           cylinders; oxygen concentrators, which are
OIG of the billing practices of Independent, OI      electrically operated machines that extract
discovered that the company had fraudulently         oxygen from room air; and liquid oxygen, which is
billed the Black Lung Program $1,014,540,            available in large stationary reservoirs and
receiving $919,164 from the Program in               portable units. A claimant uses one of these three
fraudulent payments. In some instances, oxygen       delivery systems for use in the home as the
billed to DCMWC by Independent was never             primary or "stationary" system, and is provided
provided to claimants. In other cases,               small portable gaseous oxygen tanks for use
                                                     outside the home. Claimants who use oxygen
Independent’s bills greatly inflated the amount of
                                                     concentrators are provided backup gaseous
oxygen provided to claimants. Independent            oxygen in the event of an electrical failure.
billed tremendous amounts of gaseous tank
oxygen per individual claimant, far more than a
Black Lung patient would normally use in oxygen therapy. These fraudulent bills were paid despite the
fact (unbeknownst to DCMWC) that most of these claimants were already using oxygen concentrators
as their stationary system and therefore required gaseous oxygen only as a back-up or portable system.
Each of the individuals involved in this scheme has been sentenced to 21 months in prison and has also
been ordered to pay restitution of over $1,000,000.



   1
     DME fraud is a traditional route of companies who defraud government medical programs.
According to Congressional testimony by the HHS/OIG’s Director of Criminal Investigations, drug
dealers in South Florida were leaving the illegal drug trade to open DME companies because DME fraud
was viewed as equally profitable as drug dealing but less risky. See 1998 WL (Westlaw) 18090035
(Congressional Testimony of James A. Kopf, Director, Criminal Investigations Division, HHS Office of
Inspector General, before the Senate Permanent Subcommittee on Investigations, December 9, 1998).

                                                   -5-
      B. Fraud Case: Southern Air Home Equipment Company

      Southern Air Home Equipment Company (Southern Air) was created by former Independent
      employees. The employees’ knowledge of the schemes perpetrated by Independent allowed them to
      continue with fraudulent billing practices with their own company. The schemes perpetrated against the
      Black Lung Program by Southern Air were
      similar to those committed by Independent. An
      investigation of Southern Air by OI revealed that       Examples of Fraudulent Oxygen Bills
      the company submitted fraudulent bills in the           submitted by Independent and Southern Air
      amount of $130,574. The owner of Southern
      Air was indicted by a federal grand jury on             $48,000 was paid for gas oxygen for a claimant
      charges including false claims, money laundering,       who was already using an oxygen concentrator.
      and perjury. She pled guilty and is currently           At DCMWC's current chargeable rate of $1.25
      awaiting sentencing.                                    per cubic foot, this would have entailed 1,087,334
                                                                  liters of gas oxygen or 158 of the largest tank
                                                                  units (H tanks) available. The claimant actually
C. Finding: DCMWC’s Automatic Payment                             received only 2 H tanks.
       Allowance for Gaseous Oxygen is Too High
                                                                  $120,000 was paid for a gas oxygen system for a
      DCMWC permits providers to bill for high dollar             claimant already using a concentrator. This
      amounts of gaseous tank oxygen before its                   claimant never needed any large tanks in his
      automated payment system rejects a bill. This               home and had only used a small portable unit on
      leaves the Black Lung Program vulnerable to the             one occasion. $120,000 would have purchased
      type of fraud committed by Independent and                  11,327 portable units.
      Southern Air. Currently, providers can bill $1.25
                                                                  $48,000 was paid for gaseous oxygen over a
      per cubic foot for up to 55,142 cubic feet of               sixteen month period for a claimant who actually
      oxygen per year for those claimants who use                 received only one large oxygen gas tank. This
      gaseous tank oxygen as a stationary system at 2             claimant never used the gas oxygen because his
      liters per minute (a very common prescription               needs were met by a concentrator. This claimant
      rate). 55,142 cubic feet of oxygen equates to               did use portable oxygen at the rate of eight small
      1,561,400 liters of oxygen. A claimant would                cylinders per year. $48,000 would have
      have to use 19 of the largest tanks (“H” tanks) or          purchased 4,531 portable cylinders.
      543 portable tanks per month to meet this annual
                                                                  One claimant actually used $30,831 worth of gas
      cap.                                                        oxygen, but DCMWC paid an additional $102,629
                                                                  because of inflated billing. This equates to 2.4
      In fact, very few persons requiring oxygen                  million liters of tank oxygen, or 337 large H tanks
      therapy need tank oxygen at all as their stationary         or 9,687 portable units. When the claimant was
      oxygen delivery system. Concentrators can easily            actually using gaseous tank oxygen he required 2
      deliver oxygen at a rate of 5 liters per minute.            to 3 large H tanks per month and up to 6 portable
      Studies by the HHS indicate that the vast majority          units per year.
      of patients who require supplemental oxygen can
      easily use oxygen concentrators as their primary

                                                            -6-
oxygen delivery system.2 An analysis by the General Accounting Office (GAO) puts this figure at
90%.3

Even those providers who provide Black Lung claimants with oxygen concentrators as a primary
oxygen system are allowed to bill up to one half of the stationary annual maximum (27,571 cubic feet
per year at flow rates of 2 liters per minute). Again, claimants with concentrators need gaseous oxygen
only as portable or back-up systems and therefore they normally require only relatively minimal gaseous
amounts per year. Yet, by automatically paying for up to 27,571 cubic feet per year, DCMWC leaves
itself open to fraud by unscrupulous providers. In the cases of Independent and Southern Air,
DCMWC failed to implement adequate controls to ensure that claimants even used tank oxygen, let
alone needed the large amounts of tank oxygen billed to the Black Lung Program.

D. Finding:      The CMN System Can be Manipulated by Dishonest Providers

Physicians are required to certify the medical necessity of treatment for their patients in the Black Lung
Program via Certificates of Medical Necessity (CMNs). The purpose of the CMN is to substantiate
that the physician has reviewed the patient's condition and has determined that services or supplies are
medically necessary. However, DOL/OIG investigations, and investigations and audits conducted by
HHS have revealed that unscrupulous DME providers steer physicians into signing or authorizing
improper medical certifications. In some instances, as in the Independent fraud case, physicians are
steered into signing off on CMN forms without medically verifying the actual need for specific services
prescribed on the form. The doctors who prescribed gaseous oxygen for claimants in the Independent
case later acknowledged that these claimants did not need the gaseous oxygen prescribed on the CMN
form, and that oxygen concentrators were the proper oxygen delivery system. In other situations, a
physician may enter into a "kickback" relationship with a DME provider wherein the physician receives
compensation from an oxygen provider to falsely represent that expensive liquid or tank oxygen is
medically indicated even though a less expensive oxygen concentrator can readily meet the patients
oxygen needs.

E. Recommendations:             Additional Controls are Needed for Gaseous Oxygen

1. DCMWC needs to lower the automated maximum payable amounts of gaseous oxygen for use as
   either a primary or supplemental system. Lowered automated payment amounts would not prevent
   a Black Lung claimant from receiving large amounts of gaseous tank oxygen, if actually needed.
   Lowered ceilings would, however, establish more reasonable automated "red flags" whereby a
   claims examiner or medical consultant would have to scrutinize a claimant’s medical needs and


   2
       See HHS, OIG, Oxygen Concentrator Services, OEI-02-91-01710 (November, 1994).
   3
   See Medicare: Access to Home Oxygen Largely Unchanged; Closer HCFA Monitoring Needed
(GAO/HEHS-99-56, April 1999).

                                                   -7-
   current oxygen usage before large payments of gaseous oxygen are authorized. DCMWC also
   needs to consider that many of its claimants using gaseous oxygen may be able to have their oxygen
   needs met through the use of oxygen concentrators. Concentrators are both less expensive and
   less subject to fraudulent billing because of set monthly rental rates (rather than cubic foot
   amounts).

ESA/OWCP/DCMWC Response on Automated Maximum Payable Amounts for Gaseous Oxygen

“A review of the data shows that only a very small number of miners actually use large amounts
of gaseous oxygen. Accordingly, while the program will review its maximum total payable
amounts and consider additional edits, because these changes will require sophisticated
relational edits to be most effective, they cannot be made until the new client server system is
implemented. At that time, the program will review its manual and automated procedures to
determine how additional controls can be implemented. In the interim, DCMWC will also
review payment amounts per cubic foot of oxygen to determine if these amounts should be
lowered.”

“. . . for secondary oxygen service, the program will adopt the HCFA annual dollar cap allowed
for tank oxygen, $4,118 for tank oxygen service for flow rates above four liters per minute. This
limit will be established following the requisite notices to the provider community. “ . . .
“Additionally, DCMWC will implement post-payment reviews of total gaseous oxygen charges
(primary and secondary combined) that exceed $10,000 for a patient in a year. Once the new
client server system is in place, more sophisticated edits and audits will be explored.”

OIG’s Conclusion on Automated Maximum Payable Amounts for Gaseous Oxygen

Although the agency has indicated that they will conduct certain reviews of its maximum
payment amounts, this recommendation is unresolved and cannot be considered resolved
without documentation demonstrating that DCMWC has adequately reviewed its automatic
payment allowances for both primary (stationary) and secondary (portable) gaseous oxygen.
Our recommendation to lower automatic payment amounts for gaseous oxygen was not limited
to flow rates of 4 liters per minute for secondary oxygen, but pertained to all flow rates, for both
primary and secondary oxygen. In addition, although we annualized HCFA’s caps for gaseous
oxygen in the tables of our draft report (for comparison purposes with the DCMWC’s annual
ceilings), HCFA’s caps are monthly, not yearly. Annual caps can be abused by providers billing
to the annual maximum early in the year. A triggering amount of $10,000 per patient for
post-payment audits of combined primary and secondary oxygen may become irrelevant as a
cost or fraud control measure if the DCMWC’s automatic payment allowances were lowered to
reasonable/customary levels.




                                                -8-
ESA/OWCP/DCMWC Response Regarding Increasing Concentrator Use for Claimants

“The program will modify its CMN procedures to require the examiner, in cases where a
concentrator could be used in lieu of tank oxygen, to contact the physician to ask whether such
a change is appropriate. If the doctor concurs, a concentrator will be approved.”

OIG’s Conclusion

We concur with this corrective action and will consider this aspect of the recommendation to be
resolved and closed pending our receipt of the revised CMN procedures.


2. DCMWC also needs to conduct regular and thorough follow-up regarding services provided to its
   claimants by oxygen providers. This follow-up need not be time consuming, and can be
   accomplished via a survey or a phone call to a patient by a claims examiner or medical
   professional. Although our review indicates that DCMWC has used surveys to determine what
   oxygen equipment claimants have (see Appendix A), these surveys may have been inadequate, and
   we recommend that the survey instrument currently being used be reviewed with the following
   suggestions in mind:

•   The survey is concerned only with the modality of oxygen prescribed to the claimant without regard
    to quantities provided. Thus, a stationary gaseous tank system is listed only as "Tank Oxygen with
    flowmeter" and the claimants are simply asked if they "have” the mode of equipment described.
    This means that a claimant for whom DCMWC was billed 100 tanks, but actually received 2, will
    correctly answer "yes" in the same manner as a claimant billed for 2 tanks and supplied 2 tanks.

•   Claimants are asked on the survey if they have tank oxygen but not asked if they actually use tank
    oxygen. Simple survey questions such as asking if tank oxygen was being used, and, if so, how
    much tank oxygen was being used, may have detected the fraud        committed by companies like
    Independent and Southern Air very quickly.

•   Claimants are not asked what additional or supplemental equipment was supplied by oxygen
    providers on the surveys. This simple question would have detected that claimants serviced by
    Independent were using concentrators as their primary system, and could not possibly have needed
    the large amounts of gaseous tank oxygen being billed.

•   The survey does not address any quality of service issues. For example, inquiries regarding whether
    oxygen equipment is being properly serviced, or whether associated supplies (which are billed
    separately to DCMWC) have been provided, can be obtained.




                                                  -9-
ESA/OWCP/DCMWC Response

“The DCMWC already has a procedure to verify the initial receipt of service (see DCMWC
Procedure Manual Chapter 3-601, paragraph 7) and is in the process of enhancing that
procedure to ensure that all requisite information is gathered in a uniform manner. Based on
extensive experience, the program has determined that written questionnaires, given the
demographics of-our customers, are not an effective way to gather information. DCWMC is in
the process of revising its telephone survey to validate that requested services are delivered as
prescribed and that the patient is satisfied with the service.”

OIG’s Conclusion

We have reviewed the draft surveys attached with the agency’s response, and believe that they
are a significant improvement over the DCMWC’s previous written surveys referenced in our
report. We therefore concur that this is an appropriate corrective action. We also agree that
telephone surveys are a more effective method of communication for some black lung claimants.
This recommendation is considered resolved, and will be closed pending receipt of your final
surveys, and the applicable procedures regarding survey administration.

3. We also recommend that DCMWC revise its CMN form (see Appendix B). Specifically, we
   recommend that DCMWC:

•   Revise part 13(e) of the form to reflect the fact that a false or misleading statement can also be a
    felony, pursuant to 18 U.S.C. 1001, subject to five years in prison and a $250,000 fine, as well as
    a misdemeanor under 30 U.S.C. 941.

•   Include an attestation for the physician in part 13(e) that the CMN form was completed by the
    physician, or his/her representatives, and not by a DME company servicing the claimant.

ESA/OWCP/DCMWC Response

“The DCMWC will change Section 13(e) of its Certificate of Medical Necessity (CMN) form to
specify that a false or misleading statement on the form is a felony rather than a misdemeanor,
as currently indicated on the form. You suggest application of 18 U.S.C. 1001, rather than 30
U.S.C. 941, and that the form be modified to require the physician to personally complete the
form, and so certify. DCMWC has consulted with the Associate Solicitor of Labor for Black
Lung Benefits and will make appropriate changes to Section 13(e) of the form. However, rather
than insist that the physician personally complete the form, DCMWC will ask the physician to
certify that he or she has personally reviewed the form and certifies that the information is
accurate and complete. This is similar to the certification required of physicians on the HCFA
CMN form.“


                                                  -10-
OIG’s Conclusion

We concur with the proposed corrective action and consider this recommendation to be
resolved. Our recommendation did not include a requirement that the physician personally
complete the CMN form. Rather, we stated that the form should be designed to ensure that the
physician or his representatives, rather than the DME company servicing the claimant, complete
the form. This recommendation will be closed pending receipt of your revised final form.




                                            -11-
IV. Best Practices for Home Oxygen

A. HCFA Cost Controls

The Health Care Financing Administration (HCFA) has found ways to control fraud and unnecessary
costs in the areas of home oxygen. Since 1989, HCFA has used a modality neutral payment system
for oxygen whereby providers are paid the same baseline amount regardless of what type of oxygen
delivery system (gaseous, liquid, or concentrator) is used. This modality neutral system may be helpful
in controlling fraud because it appears to remove some incentives for providers to cheat. For example:

1. Physicians may have little incentive to engage in “kickback” scams with home oxygen providers by
   prescribing medically unnecessary and more expensive methods of oxygen delivery because all
   modalities are reimbursed at the same basic rate.

2. Oxygen providers may have less incentive to manipulate the CMN process by steering the
   physician toward authorizing oxygen delivery systems more profitable for their company.

3. Oxygen providers can still attempt to bill HCFA carriers for oxygen not actually provided, as in the
   cases of Independent and Southern Air with the Black Lung Program. However, their profits
   when taking such a risk would be much lower. This is because HCFA's modality neutral system
   does not allow for billing per cubic foot. Thus, maximum gaseous and liquid oxygen charges are
   fixed, regardless of the number of oxygen units billed by the oxygen provider.

HCFA has not found that its modality neutral system has impaired claimant service. To address service
quality concerns, HCFA has implemented an additional payment of 50% beyond its set baseline payment
for the small number of oxygen patients who require oxygen flows greater than 4 liters per minute. This
allowance ensures that claimants who truly need gaseous or liquid oxygen are not denied access to those
systems. However, as discussed in the next section of this report, even with this extra 50% allowance,
HCFA still has much lower maximum allowances for home oxygen than DCMWC.

HCFA also requires DME providers to post $50,000 surety bonds to participate in the Medicare
Program. This is an anti-fraud measure used by HCFA as insurance in the event of overpayment to
providers. In addition, HCFA requires Disclosures of Ownership Interest Statements which require that
medical providers disclose identification of all officers, directors, physicians, and principal partners. This
helps HCFA carriers and the HHS/OIG to monitor possibly fraudulent arrangements between physicians
and oxygen providers. A potentially fraudulent relationship between a doctor and an oxygen provider can
occur, for example, when a physician has ownership in the same DME company to which he refers
patients.




                                                     -12-
Comparison of Oxygen Cost Controls Between HCFA and DCMWC

In the last two years HCFA has cut oxygen rates by 30% by using a realistic market-based methodology
to establish what are reasonable charges in the home oxygen market, by geographic region. Prior to these
rate cuts, HCFA was paying what it characterized as "grossly
excessive" rates for oxygen.4 The genesis of HCFA's oxygen rate cuts was a GAO study which
found that HCFA was paying about 38 percent more for home oxygen supplies than the
competitive marketplace rates paid by VA. 5 The GAO determined that HCFA rates were 38
percent higher even after adding a 30-percent adjustment to VA rates to account for the higher costs
associated with servicing Medicare patients. The higher costs incurred by Medicare would also apply to
the Black Lung Program, with VA having an inherent edge over both programs because of their dual role
as both a provider and payer of medical services. VA suppliers do not have many of the administrative
costs associated with servicing programs like Medicare and the Black Lung Program. Such
administrative costs include preparing CMN forms, processing claims, and administrative costs
associated with collecting co-payments (Medicare).

A central premise of the GAO study was that because VA uses competitive bidding to procure oxygen for
its patients, VA rates are an indicator of true marketplace rates. HCFA's own analysis supported the
GAO study, and also noted that recent technological advances in oxygen delivery had significantly
reduced costs to oxygen suppliers. One very significant technological development in recent years has
been the improvement of oxygen conserving devices which preserve oxygen when the patient is not
inhaling, reducing the amount of oxygen normally consumed by a patient by up to 50 percent. (See
Appendix C.)

Comparison of Rental Costs for Oxygen Concentrators Between HCFA and DCMWC
As discussed previously, the vast majority of patients who need home oxygen therapy use oxygen
concentrators to meet their oxygen needs. Both HCFA and the Black Lung Program provide for the
rental of concentrators for their claimants. HCFA's maximum allowable charge for a full month of oxygen
concentrator rental ranges from $194.48 to $228.80 (including claimant co-payment). This maximum
charge varies based on geographic region, and includes all services and supplies. The Black Lung
Program pays $409.82 per full (31 day) month of concentrator rental, regardless of geographic location,
and allows providers to bill up to an additional $75.00 per item for associated supplies. The following
table shows the maximum allowable monthly rental amounts oxygen providers receive from HCFA,
including claimant co-payment, in comparison to some of the areas of the country where the Black Lung
Program also services claimants.


   4
     See “Medicare Program; Special Payment Limits for Home Oxygen,” 62 Federal Register 38100
(July 16, 1997).
   5
    See Medicare: Comparison of Medicare and VA Payment Rates for Home Oxygen (GAO/HHS-
97-120R, May 15, 1997).

                                                 -13-
Comparison: Oxygen Concentrators and Supplies




       State              HCFA’s              HCFA’s            DCMWC’s                 DCMWC’s
                         Maximum             Maximum          Maximum Rental          Maximum Supply
                            Rental            Supply           Allowance per            Allowance
                        Allowance per        Allowance            Month                  Per Item
                            Month            Per Item
                                                                                            $75.00
   West Virginia           $228.80                $0               $409.82                   75.00
   Pennsylvania             228.80                 0                409.82                   75.00
    Tennessee               228.80                 0                409.82                   75.00
    Kentucky                228.80                 0                409.82                   75.00
     Virginia               228.80                 0                409.82                   75.00
    Colorado                198.01                 0                409.82                   75.00
     Florida                213.11                 0                409.82



As shown above, DCMWC allows significantly more than HCFA for the rental of oxygen concentrators,
and associated supplies. In West Virginia, a state with a very high concentration of Black Lung
claimants, this maximum allowance is almost twice what HCFA allows. 6

Comparison of Stationary Gaseous Oxygen Rates between HCFA and DCMWC

HCFA allows a maximum provider charge of between $194.48 and $228.80 per month for claimants
requiring gaseous tank oxygen as their stationary/primary system at rates up to 4 liters per minute. At flow
rates greater than 4 liters, HCFA allows an additional payment of 50 percent. In contrast, the Black Lung
Program pays $1.25 per cubic foot of oxygen billed, automatically paying bills for claimants whose annual
gaseous oxygen use does not exceed predetermined annual amounts. The following table shows the
(annualized) payment differences between the two programs.




   6
      For both HCFA and DCMWC, a provider may not bill the maximum allowable amount for an
oxygen concentrator rental. This can occur for various reasons. For example, a claimant may die or can
be switched to gas oxygen as a primary system. Because some claimants will not use a concentrator for
a full billing period, the overall (claimant wide) average paid by either HCFA or DCMWC for
concentrator rentals will not equal the established maximum allowance.

                                                 -14-
Comparison: Stationary Gaseous Oxygen

           Flow Rate                    Potential DCMWC                     Potential HCFA
                                        Annual Maximum                     Annual Maximum

             2 liters                       $ 69,927                             $2,745
             3 liters                         92,141                              2,745
             4 liters                        115,355                              2,745
             5 liters                        165,000                              4,118
             6 liters                        194,140                              4,118




Obviously, a provider can bill much higher amounts for their patients who use gaseous oxygen under
the Black Lung Program than for their patients served by Medicare. Appendix D lists providers who
have received gaseous oxygen payments far higher than would be allowed under HCFA. In terms of
the high annual automatic allowances above, it is highly unlikely that Black Lung patients would ever
legitimately need such generous home gaseous oxygen allowances. Yet, these higher maximum
allowances give dishonest providers an opportunity to take advantage of this system.

Comparison of Reimbursement Rates for Portable Oxygen Units Between HCFA and DCMWC

Both HCFA and the Black Lung Program allow supplemental payments for patients who require
small portable oxygen units for use when leaving the home or as backups. HCFA’s monthly portable
allowance ranges from $30.57 to $35.97 per month depending on geographic location. At flow rates
of 4 liters per minute and above, HCFA allows an additional 50-percent charge so that its maximum
payment for portable units ranges from $45.86 to $53.96 monthly. As with stationary gaseous
oxygen systems, DCMWC allows providers to bill at $1.25 per cubic foot, with annual cubic foot
allowances which would far exceed normal usage. The following table lists the current annual billable
allowances for portable and back-up units under the Black Lung Program in comparison to HCFA.




                                                -15-
Comparison: Portable Gaseous Oxygen

                            Potential DCMWC             Potential DCMWC           Potential HCFA
                                  Annual                Oxygen Allowance              Annual
       Flow Rate              Payment Max.                       in                Payment Max
                                                            Cubic Feet

         2 liters                $34,463.75                  27,571                   $431.64
         3 liters                $46,070.00                  36,856                   $431.64
         4 liters                $57,677.50                  46,142                   $431.64
         5 liters                $68,750.00                  55,000                   $647.46

DCMWC’s maximum payment allowance of $34,463.75 (at two liters per minute) equates to eighty
times the maximum HCFA payment allowance. As with their stationary gaseous payment policies,
DCMWC’s combination of paying per cubic foot coupled with high automatic allowances, makes the
Black Lung Program vulnerable to both excessive payments and fraudulent billing.

DCMWC’s Use of Procedure Code A4330 for Oxygen Supplies

Under procedure code A4330, DCMWC permits a $75.00 per item charge for disposable supplies
associated with oxygen equipment, such as inexpensive nasal cannulas, masks, etc. HCFA does not
allow providers to tack on additional charges for disposable supplies because these disposables are
supplied to patients at minimal cost to the oxygen companies. The approximate per item market prices
are listed below:


                            Supplies            Market Price          DCMWC
                                                                      Allowance

                    Tubing                          $25.00            $75 per item
                    E-Cart                           24.50            $75 per item
                    Oxygen Humidifier                 2.25            $75 per item
                    Nasal Cannula                     1.50            $75 per item




The market prices listed above are those charged to VA in contract V554P-3692. They allow the
provider to make a reasonable profit, but the government is not overcharged. Because DCMWC
allows $75.00 charges on a per item basis, a provider can bill $150.00 for two nasal cannulas that

                                                 -16-
cost $3.00 in the marketplace.7 Although DCMWC officials have indicated in meetings with the OIG
that the average per item payment for oxygen supplies is normally far less than $75.00, two issues
remain: 1) why extra charges for oxygen supplies are authorized at all, given that oxygen providers who
also service HCFA claimants cannot bill HCFA for oxygen supplies; and 2) why the code, if needed, is
set at such an unnecessarily high dollar amount given its potential for abuse.

HCFA’s Competitive Bidding Demonstration Project

HCFA is currently engaged in a demonstration project to examine whether they can further reduce
oxygen costs and fraud without jeopardizing claimant service. This project in South Florida requires
oxygen providers to bid competitively for oxygen contracts, and awards contracts to bidders with
reasonably low bids combined with positive service records.8 While not requiring providers to be
professionally accredited, HCFA conducts background research on oxygen providers. Such research
includes inquiries regarding the provider’s historical compliance with Medicare rules, financial stability,
and service reputation. HCFA also checks whether the provider has engaged in any unethical or
criminal billing behavior against Medicare. The HHS maintains a list of medical providers excluded from
Medicare because of criminal or ethical concerns. Our review indicates that DCMWC does not
provide this list nor any similar lists to its medical audit section for cross-checking purposes.

The competitive bidding project by HCFA is similar to VA’s system of oxygen procurement, which is
discussed in the following section.


B. VA Oxygen Procurement Procedures

VA’s Veterans Health Agency contracts for all home oxygen by using competitive bidding. They solicit
contracts within 22 geographic networks or VISN's (Veterans Integrated Service Networks).
Although the bidding process provides all vendors the opportunity to bid on oxygen solicitations, VA
favors accredited oxygen providers with strong service standards. VA's system is superior to the
system used by the Black Lung Program because it produces quality service and



   7
       Prior to June of 1997, DCMWC permitted a $200 per item charge.
   8
     HCFA’s authority to implement competitive bidding pilots was authorized by Congress as part of the
Balanced Budget Act of 1997. The White House supports the expansion of Medicare competitive
bidding programs for DME equipment beyond HCFA’s current demonstration status. As stated by
President Clinton on January 24, 1998, HCFA should "do what most private and other government health
care purchasers do to control cost -- lower costs by injecting competition into the pricing for equipment
and non-physician services." See 1998 WL (Westlaw) 24116 (White House) (“Fact Sheet on Proposals
to Combat Medicare Fraud,” The White House, Office of Communications, January 24, 1998).

                                                   -17-
low market-based prices. VA also permits other government agencies to use its contracts to procure
home oxygen, allowing these agencies to also benefit from low prices and quality service.

VA Oxygen Costs Are Significantly Lower than DCMWC’s

VA oxygen costs are lower than HCFA's, and much lower than DCMWC's. For example, the GAO
found that the average VA monthly payment in 1996 for patients using oxygen concentrators was $125
including all supplies, services, and portable units.9 VA incurs savings for concentrators in two ways:
1) competitive contracts with oxygen providers for concentrator purchase and servicing; and, 2)
competitive contracts with oxygen providers for concentrator rentals and servicing. Information
obtained from VA regarding contractual oxygen prices in VISN 9, (which comprises parts of West
Virginia, Tennessee, and Kentucky) indicates that VA currently pays $69.22 per month for oxygen
concentrators.

VA Contracts Mandate Quality Service

VA oxygen contracts have quality service clauses with specific patient support and equipment
maintenance requirements. GAO's analysis of VA contracts and their review of Medicare and VA
patient records showed that VA patients typically received more frequent service visits than Medicare
patients. In addition, the GAO found that VA patients were generally provided with increased access
to portable units, and utilized better and more modern equipment.10 Beyond strong contractual service
standards, VA uses suppliers who are accredited by the Joint Commission on Accreditation of
Healthcare Organizations (JCAHO) or comply with its standards.

In contrast, an oxygen provider can do business with the Black Lung Program by simply complying
with the basic registration requirements associated with obtaining a supplier/billing number. This can
lead to quality service and fraud problems. Paul David Adkins, for example, not only submitted
fraudulent bills to the Black Lung Program, but he also was a twice convicted felon who falsified his
medical credentials.

VA Procures Oxygen for Other Government Agencies

VA’s VISN centers service every sector of the country. Because of VA’s ability to procure home
oxygen at very low prices, other government agencies have established inter-agency agreements with
VA so they can “piggyback” on VA contracts to lower oxygen costs. An agency like



   9
    See Medicare: Home Oxygen Program Warrants Continued HCFA Attention (GAO-HEHS/98-17,
November, 1997).
   10
        Ibid.

                                                  -18-
DCMWC, which has relatively modest oxygen needs, is perhaps an ideal agency to link with VA for
oxygen procurement.

C. Suitability of HCFA’s and VA’s Oxygen Policies to the Black Lung Program

DCMWC officials expressed concerns during our review regarding the applicability of HCFA or VA
methods to the Black Lung Program. Specifically, we address concerns regarding patient choice;
perceived problems with servicing Black Lung claimants in remote locations; potential harm to small
businesses due to reduced profit margins; clinical differences among claimants; and, and potential delays
in paying claimant bills. In addition, we have included issues addressed by HCFA when oxygen cost
reforms were proposed for Medicare providers.

Patient Choice

This issue pertains to the use of competitive bidding, which if used by DCMWC, would require that the
agency determine which oxygen provider services a claimant. DCMWC officials stated in our
February 1, 1999 meeting that Black Lung claimants have, by law, unlimited choice as to which
registered DME company provides their oxygen, and that DCMWC therefore cannot utilize a
competitive bidding system.11 HCFA did require legislative changes before it could implement its
competitive bidding pilot in South Florida. However, there are several important distinctions between
Medicare and the Black Lung Program pertaining to patient choice and competitive bidding:

1. Medicare claimants make a 20% co-payment when receiving service. It would appear to be more
   difficult to restrict choice from patients who are using their own funds to pay for medical care (co-
   payments sometimes have to be waived by HCFA). Black Lung claimants do not make co-
   payments.

2. HCFA's use of competitive bidding can have a significant economic impact on the home oxygen
   industry, including small businesses. The small size of the Black Lung Program mitigates these
   effects. Medicare's annual oxygen expenditures exceed $1.5 billion compared to approximately $8
   million for the Black Lung Program.

3. Our review of the Black Lung Act did not identify any express prohibitions against competitive bidding,
   and we are unaware of any legal opinions regarding the propriety of competitive bidding in the Black
   Lung Program. If legal prohibitions do exist, we would suggest that DCMWC support legislation to
   permit competitive bidding.




   11
     The idea that a Black Lung claimant normally chooses his oxygen provider may be a misconception.
DME companies may, on their own initiative, solicit business from Black Lung claimants. In addition,
claimants may be referred to oxygen providers by their physicians, or DCMWC.

                                                   -19-
Remote Geographic Location of Black Lung Claimants

Many Black Lung claimants live in rural areas. Of course, Medicare claimants and VA patients also live in
rural areas -- indeed Medicare and VA home oxygen claimants live in every geographic sector of the
country. VA's competitive contracts service all geographic areas, including those heavily concentrated
with Black Lung claimants.

Ability of Providers to Absorb Lower Reimbursement Amounts from DCMWC

The same DME companies who provide oxygen to Black Lung claimants also service Medicare
patients. These companies presumably profit from the much lower prices established by HCFA,
although not at the potentially windfall levels permitted by DCMWC. As mentioned previously,
technological advances in recent years, such as oxygen conserving devices, have cut provider costs.
DME companies who receive oxygen contract awards from VA via competitive bidding profit from
rates even lower than HCFA's. These profits are, however, in line with normal market pricing.

Potential Harm to Small Businesses

As part of its competitive bidding methodology, HCFA must consider small business interests, and this
consideration can be built into any competitive bidding system. In HCFA’s pilot, the lowest bidder
doesn't necessarily receive the contract award. However, HCFA will award the contract to a company
with a reasonably low bid combined with quality service, program compliance, and other factors, such
as whether the firm is a small business.

It should also be noted that many of the small "local" oxygen providers who service the Black Lung
Program are subsidiaries of large providers. Three firms, Apria, Lincare, and RoTech, service roughly
45% of the home oxygen market, and have networks with hundreds of branches.

Clinical Differences Among Claimants

Medicare, VA, and Black Lung patients with pulmonary insufficiency must meet the same medical
eligibility criteria for home oxygen. Patients must have (1) an appropriate diagnosis of chronic
pulmonary disease; and, (2) identical clinical tests documenting reduced levels of oxygen in the
blood. Both Medicare and Black Lung patients require a certificate of medical necessity, signed by
a physician, prescribing the volume of supplemental oxygen required in liters per minute, as well as
whether the patient needs a portable unit with the home-based stationary unit.




                                                  -20-
D. Recommendations

1. DCMWC should restructure its oxygen reimbursement methods and policies to control oxygen
   costs and reduce vulnerability to fraud. Our analysis does not indicate serious impediments to the
   adoption of HCFA reforms, VA procurement policies, or a hybrid approach combining
   characteristics of both agencies. Therefore, we are recommending that DCMWC review each of
   these alternatives and determine which, if any, would be most helpful in reducing potentially
   excessive home oxygen costs and fraud.

ESA/OWCP/DCMWC Response

“The draft report discusses best practices for home oxygen and compares VA, HCFA and
DCMWC practices and rates. The report recommends that DCMWC ‘restructure its oxygen
reimbursement methods and policies to control costs and reduce vulnerabilities to fraud.’
Further, the report suggests that the program review VA and HCFA practices for guidance.
While not all VA and HCFA practices are appropriate for application in the Black Lung
program, the program agrees that the HCFA maximum allowable rates for concentrator
rentals establish a de facto standard of what is ‘reasonable and customary.’ Accordingly,
DCMWC will adopt the HCFA rate (currently $228.80 per month) as the maximum allowable
charge as soon as the required notices are given to providers. Once the new client server
system is implemented, the program will consider the feasibility of additional controls, such as
locality rates.”

“DCMWC believes that in adopting the HCFA limits for concentrator rentals we have
satisfied the spirit of the OIG recommendation, reducing the maximum allowable rate for this
service while obviating the cumbersome and problematic competitive bidding process. This
also allows DCMWC to retain its longstanding policy of patient choice in a manner consistent
with sound cost management.”

OIG’s Conclusion

This recommendation is unresolved. While we concur that HCFA’s maximum allowable rates
for concentrator rentals is a de facto standard of what is "reasonable and customary" for
government agencies who do not engage in competitive bidding, we also believe that HCFA’s
maximum allowable rates for primary and secondary gaseous oxygen establish a similar de
facto standard. Thus, in lieu of a competitive bidding process, the DCMWC should also
consider using automatic payment ceilings for primary and secondary oxygen which are in line
with HCFA’s oxygen caps.

In addition, your response provides no explanation as to why a competitive bidding process,
particularly one conducted by the VA through an interagency agreement, would be


                                                -21-
cumbersome or problematic for the DCMWC. It also provides no justification as to why the
DCMWC’s longstanding position on patient choice cannot or should not be changed.




                                           -22-
2. We recommend that DCMWC abandon its current procedures concerning the use of generic code
   A4330 for supplies. Alternatives can include specific codes for specific supplies at reasonable market
   prices or bundling supply charges with the cost of the stationary oxygen delivery system.

ESA/OWCP/DCMWC Response

“DCMWC will adopt this recommendation when it adopts the HCFA maximum allowable rate for
concentrator rentals.”

OIG’s Conclusion

We consider this recommendation to be unresolved because DCMWC’s response can be interpreted
to apply only in the context of concentrator rentals and does not clearly indicate that the agency
plans to abandon this code entirely and with respect to all oxygen modalities (primary gas,
secondary gas, liquid oxygen).

3. We recommend that DCMWC develop a system whereby its medical audit section can review the
   reports of excluded medical providers maintained by HHS, as well as review similar lists which may
   be issued by other federal agencies or by state medical boards which publicize providers who have
   engaged in illegal or unethical conduct.

ESA/OWCP/DCMWC Response

“DCMWC agrees and will work with HHS to obtain current listings and will establish appropriate
review procedures. “

OIG’s Conclusion

We concur with this corrective action and consider this recommendation resolved. This
recommendation will be closed pending our receipt of the DCMWC’s review procedures.




Contributors to this Report:

Brent Carpenter, Project Leader
Nigel R. Gardner
Dennis J. Raymond
Amy C. Friedlander, Director, Division of Evaluations and Inspections




                                                  -23-
